NO. ______________
IN THE

SUPREME COURT OF THE
UNITED STATES
CHRISTINE CLIFFORD, (AS ADMINISTRATOR
OF THE ESTATE OF JOHN CLIFFORD), et. al.,
Petitioners
v.
RICHARD FEDERMAN, et. al., Respondents
________________________
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
___________
PETITION FOR WRIT OF CERTIORARI

Carl J. Soranno, Esq.
Counsel of Record
Brach Eichler LLC
101 Eisenhower Pkwy
Roseland, NJ 07068
973.228.5700
csoranno@bracheichler.com
Attorneys for Petitioners

QUESTION PRESENTED
This Court created the governing standard for
substantive Fed. R. Civ. P. 12 (“Rule 12”) and 8 (“Rule
8”) review of federal civil pleadings in Bell Atlantic Corp.
v. Twombly, 550 U.S. 554, 570 (2007) and Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009). Accordingly, no other
federal court may create its own separate or competing
standard to determine whether federal civil pleadings:
(i) state a claim upon which relief can be granted to
survive a Rule 12 motion to dismiss; (ii) comply with
Rule 8(a)(2)’s short and plain statement of the claim
showing that the pleader is entitled to relief
requirement; and/or (iii) provide defendants fair notice
of the claims against them and the grounds upon which
they rest.
Since 1985, the Eleventh Circuit has been in
direct conflict with this Court’s governing Twombly and
Iqbal standard. Specifically, Eleventh Circuit courts
routinely apply the “shotgun pleading” rule to determine
whether pleadings comply with Rule 8(a)(2) and/or state
a claim upon which relief may be granted without
applying the Twombly and Iqbal standard.
The question presented is therefore whether the
Eleventh Circuit’s “shotgun pleading” rule used to strike
pleadings with prejudice directly conflicts with the
Twombly and Iqbal standard for Rule 12 and Rule 8
substantive merit review of a pleading.

CORPORATE DISCLOSURE STATEMENT
The corporate Petitioners do not have a parent
corporation and there is no publicly held corporation
that owns ten percent (10%) or more of their
membership.
PARTIES TO THE PROCEEDING
All parties do not appear in the case caption on
the cover page. Petitioners Christine Clifford (as
Administrator of the Estate of John Clifford); Craig
Clifford; Scott Clifford; Paul Clifford; Stephen Dazzo;
Kasolas Family & Friends VG Investment, LLC; and
Jersey Cord Cutters, LLC (“Petitioners”) were the
appellants in the court of appeals. Respondents were
appellees in the court of appeals. Respondents are: 1094
Digital Distribution LLC; 2251 Lake Park Investment
Group, LLC; 2496 Digital Distribution LLC; Arthur,
Daryl; Ashcraft, Katie; Ashcraft Opperman &
Associates, LLC; Business Consulting, LLC; Cascade
Northwest, Inc.; Clippard, Heather; Doc Maandi Movies
LLC; DMM-Expendables 3 LLC; Emmenegger, Jan;
Federman, Richard; Gotham Media Corporation;
Gotham Media Services, Inc.; Guthrie, Todd; Hairston,
George; Johnson, Winston; Kimberlyte Production
Services, Inc.; Kostensky, Robert; KT Communications
Consulting, Inc.; Maandi Entertainment LLC; Maandi
Media Holdings International LLC; Maandi Media
Productions LLC; Maandi Media Productions Digital
LLC; Maandi Park MS LLC; Megatone Music, LLC;
Poole, Lori; Rickshaw Productions, LLC; Robert Half
International, Inc. (D/B/A The Creative Group And
D/B/A Robert Half Technology); Shaw, Patrick; SST
Swiss Sterling, Inc.; Su, Justin; Tech CXO, LLC;
Thurman, Kristy; Winsonic Digital Cable Systems
Network Holdings, Ltd.; Winsonic Digital Cable Systems
Network, Ltd.; and Winsonic Digital Media Group, Ltd.

ii

TABLE OF CONTENTS
QUESTION PRESENTED........................................ i
CORPORATE DISCLOSURE STATEMENT.......... ii
PARTIES TO THE PROCEEDING ......................... ii
TABLE OF APPENDIX ........................................... v
TABLE OF AUTHORITIES ................................... vii
PETITION FOR WRIT OF CERTIORARI .............. 1
OPINIONS BELOW ................................................. 1
JURISDICTION ....................................................... 1
RELEVANT COURT RULES .................................. 1
STATEMENT OF THE CASE ................................. 1
A.

Legal Background ............................... 2

B.

The Directly Competing 11th Circuit
Shotgun Pleading Rule ....................... 4

C.

Factual Background & Proceedings
Below ................................................... 6

REASONS FOR GRANTING THE PETITION .... 10
A.

The Shotgun Pleading Rule Directly
Conflicts with Twombly/Iqbal ......... 13

B.

Weiland Confirms the “Shotgun
Pleading” Rule Conflicts ................... 15

C.

Creation of the Fifth Shotgun Pleading
Variant Based On “Too Many Facts”
Pled .................................................... 18

D.

The Shotgun Pleading Rule Operates
As Its Own Rule ............................... 24

E.

The Sledge Case Illustrates the
Shotgun Pleading Rule Undermines
iii

Twombly and Iqbal to Strike Viable
Complaints ........................................ 26
F.

The Shotgun Pleading Rule Is
Spreading to Other Circuits ............. 28

CONCLUSION ....................................................... 29

iv

TABLE OF APPENDIX
APPENDIX A:
May 5, 2021 Court of Appeals
Written Opinion and Order……………………..1a
APPENDIX B:
March 22, 2019 District Court
Order………………………………………………..11a
APPENDIX C:
March 22, 2019 District Court
Order………………………………………………..48a
APPENDIX D:
March 22, 2019 District Court
Order………………………………………………..64a
APPENDIX E:
January 7, 2020 District Court Written
Opinion & Order…………………………………..96a
APPENDIX F:
June 15, 2020 District Court Written
Opinion & Order………………………………….106a

v

TABLE OF AUTHORITIES
Page(s)
Cases
Army & Air Force Exchange Serv. V.
Sheehan,
456 U.S. 728 (1988) .................................................. 12
Ashcroft v. Iqbal,
556 U.S. 662 (2009) .......................................... passim
Barmapov v. Amuial,
986 F.3d 1321 (11th Cir. 2021) ........................ passim
Bartol v. Barrowclough,
251 F.Supp.3d 855 (E.D.P.A. 2017) ................... 28, 29
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007) .......................................... passim
Hollingsworth v. Perry,
558 U.S. 183 (2010) .................................................. 12
Hynson v. City of Chester,
864 F.2d 1026 (3rd Circuit 1988) ............................ 28
Lambert v. Wicklund,
520 U.S. 292 (1997) .................................................. 12
Layne & Bowler Corp. v. Western Well
Works,
261 U.S. 387 (1923) .................................................. 11
Leatherman v. Tarrant County,
507 U.S. 163 (1993) .................................................. 13
Linkletter v. Walker,
381 U.S. 618 (1965) .................................................. 11
McNabb v. U.S.,
318 U.S. 332 ............................................................. 12
Rice v. Sioux City Mem’l Park Cemetery,
349 U.S. 70 (1955) .................................................... 11
vi

Sledge v. Goodyear Dunlop Tires,
275 F.3d 1014 (11th Cir. 2001),
abrogated on other grounds, Douglas
Asphalt v. QORE, Inc., 657 F.3d 1146
(11th Cir. 1998) ............................................ 26, 27, 28
Swierkiewicz v. Sorema N. A.,
534 U.S. 506 (2002) .................................................. 13
T.D.S. Inc. v. Shelby Mut. Ins. Co.,
760 F.2d 1520 ......................................................... 4, 5
U.S. v. Bass,
536 U.S. 862 864 (2002) ........................................... 12
U.S. v. Beggerly,
524 U.S. 38 (1998) .................................................... 12
Wagner v. First Horizon Pharmaceuticals
Corp.,
464 F.3d 1273 (11th Cir. 2006) .......................... 25, 26
Weiland v. Palm Beach Cty. Sheriff’s
Office,
792 F.3d 1313 (11th Cir. 2005) ........................ passim
Wright v. City of Philadelphia,
# 01-6160, 2005 WL 3091883 (E.D.Pa
Nov. 17, 2005)..................................................... 28, 29
Yee v. City of Escondido,
503 U.S. 519 (1992) .................................................. 13
Statutes
18 U.S.C. §§ 1961-1968 ................................................... 1
28 U.S.C. § 1330 .............................................................. 1
28 U.S.C. § 1332 .............................................................. 1

vii

PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully petition for a writ of
certiorari to review the final judgment of the United
States Court of Appeals for the Eleventh Circuit.
OPINIONS BELOW
The court of appeals’ May 5, 2021 Written Opinion
& Order is unpublished (1a-10a) but reported at 2021
WL 1788472. The district court’s January 7, 2020
Written Opinion & Order (96a-105a) is unpublished but
reported at 2020 WL 377026. The district court’s June
15, 2020 Written Opinion & Order (106a-112a) and three
Written Opinions and Orders dated March 22, 2019 are
all unreported. (11a-95a)
JURISDICTION
The court of appeals’ affirmance of the district
court’s three rulings below striking Petitioner’s
complaints with prejudice on shotgun pleading grounds
was entered by Written Opinion & Order on May 5,
2021. (1a-12a). This Court therefore has jurisdiction to
hear this petition pursuant to 28 U.S.C. 1254(1) since it
requests the Court review a federal circuit court of
appeal’s final judgment by writ of certiorari.
RELEVANT COURT RULES
Federal Rules of Civil Procedure 8(a)(2), 12(b)(6)
and 12(c).
STATEMENT OF THE CASE
The district court’s jurisdiction below was invoked
per 28 U.S.C. § 1330. This action was filed under United
States law: (i) Section 10(b) of the Securities & Exchange
Act of 1934 (the “Securities Act”); (ii) SEC Rule 10b-5;
and (iii) the Racketeer Influenced & Corrupt
Organization Act (“RICO”) at 18 U.S.C. §§ 1961-1968.
The jurisdiction of the district court below was
also invoked pursuant to 28 U.S.C. § 1332 because this
1

action is between citizens of different states and the
amount in controversy exceeds $75,000, with
Petitioners’ aggregate damages being approximately
$6,000,000.
In Twombly, this Court promulgated the
governing standard under Rule 8 for pleading a claim
upon which relief can be granted to survive a Rule 12
motion to dismiss. In Iqbal, this Court confirmed
Twombly’s governing pleading standard applies to “all
civil actions” in federal courts. Neither case references
or authorizes any other governing standard for
reviewing pleadings for compliance with Rule 8 and/or
surviving Rule 12 motions to dismiss – whether on
technical form or substantive grounds.
Nevertheless, the Eleventh Circuit has been
implementing its own separate shotgun pleading rule for
over 35 years to conduct Rule 8 and Rule 12 analyses
without reviewing pleadings under Twombly and Iqbal,
to determine whether such pleadings state viable claims
and give defendants notice of such claims. The shotgun
pleading rule contains strict “form” requirements that
have no substantive nexus to whether a complaint
satisfies Rule 8 and/or should survive a Rule 12 motion.
The shotgun pleading rule is routinely and openly used
in Draconian fashion to strike with prejudice patently
viable pleadings stating viable claims on technical form
grounds and that otherwise would survive a Rule 12
motion to dismiss under Twombly/Iqbal. The Eleventh
Circuit ignores the Twombly/Iqbal standard, and is in
direct conflict with the Twombly/Iqbal standard Rule 8
and Rule 12 substantive merits analyses. Consequently,
this Court’s review is necessary to determine the
shotgun pleading rule’s legitimacy and viability.
A.

Legal Background

In Bell Atlantic Corp. v. Twombly, 550 U.S. 544
(2007), this Court created the governing standard for
evaluating whether a complaint is enough to survive a
motion to dismiss. The Court held that Rule 8(a)(2)
requires only “a short and plain statement of the claim
showing that the pleader is entitled to relief” in order to
“give the defendant fair notice of what the ... claim is and
the grounds upon which it rests.” Id. at 555. Twombly
2

determined Rule 8 does not require “detailed factual
allegations” but demands more than an unadorned, thedefendant-unlawfully-harmed-me accusation. Id.
Twombly ruled that “[w]hile a complaint attacked
by a Rule 12(b)(6) motion to dismiss does not need
detailed factual allegations, a plaintiff’s obligation to
provide the grounds of his entitlement to relief requires
more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not
do.” Id. Those factual allegations “must be enough to
raise a right to relief above the speculative level,” and
“must contain something more than a statement of facts
that merely creates a suspicion of a legally cognizable
right of action on the assumption that all the allegations
in the complaint are true (even if doubtful in fact).” Id.
at 555-556.
Therefore, under Twombly, “the threshold
requirement of Rule 8(a)(2) [is] that the ‘plain statement’
possess enough heft to ‘show that the pleader is entitled
to relief.’” Id. at 556. Surviving a Rule 12 motion under
Twombly “requires a complaint with enough factual
matter (taken as true) to suggest” a cause of action
against a defendant(s). Id. Twombly firmly articulated
the governing Rule 12 and Rule 8 “accepted pleading
standard: once a claim has been stated adequately, it
may be supported by showing any set of facts
consistent with the allegations in the complaint.” Id. at
563 (emphasis added). To therefore “survive a motion to
dismiss, a complaint must contain sufficient factual
matter, accepted as true, to “state a claim to relief that
is plausible on its face.” Id. at 570.
This Court expanded on Twombly in Ashcroft v.
Iqbal, 556 U.S. 662 (2009) by holding that: “Rule 8
marks a notable and generous departure from the
hyper-technical, code-pleading regime of a prior
era.” Id. at 678-679 (emphasis added). Iqbal added that
“[w]hile legal conclusions can provide the framework of
a complaint, they must be supported by factual
allegations.” Id. at 678-679. Iqbal also ruled that
“[w]hen there are well-pleaded factual allegations, a
court should assume their veracity and then determine
whether they plausibly give rise to an entitlement to
relief.” Id. at 680-684. Iqbal/Twombly “was based on
[this Court’s] interpretation and application of Rule 8
3

[which]” in turn governs the pleading standard “in all
civil actions and proceedings in the United States
district courts.’” Id.
B.

The Directly Competing 11th Circuit
Shotgun Pleading Rule

In the Eleventh Circuit, a purported “failure” to
comply with Rule 8(a)(2) is not the type of failure
described in Twombly and Iqbal. Quite the contrary.
The first published opinion to discuss shotgun
pleadings in any meaningful way described the
[Eleventh Circuit’s perceived] problem with shotgun
pleadings under the federal rules. Weiland v. Palm
Beach Cty. Sheriff’s Office, 792 F.3d 1313, 1320 (11th Cir.
2005)(citing T.D.S. Inc. v. Shelby Mut. Ins. Co., 760 F.2d
1520) (11th Cir.1985). The shotgun pleading rule
emanated in 1985 before Twombly and Iqbal in a
“footnote, which began by quoting Rules 8(a)(2) and
10(b)”:
The purpose of these rules is self-evident,
to require the pleader to present his claims
discretely and succinctly, so that, his
adversary can discern what he is claiming
and frame a responsive pleading, the court
can determine which facts support which
claims and whether the plaintiff has stated
any claims upon which relief can be
granted, and, at trial, the court can
determine that evidence which is relevant
and that which is not. “Shotgun” pleadings,
calculated to confuse the “enemy,” and the
court, so that theories for relief not
provided by law and which can prejudice an
opponent’s case, especially before the jury,
can be masked, are flatly forbidden by the
[spirit], if not the [letter], of these rules.
Weiland, supra. at 1320-21, n. 2.
That “footnote described the complaint in T.D.S.
as ‘a paradigmatic shotgun pleading, containing a
variety of contract and tort claims interwoven in a
haphazard fashion.’” Id. The “T.D.S. [footnote] was [its]
first shot in what was to become a thirty-year salvo of
criticism aimed at shotgun pleadings, and there is no
4

ceasefire in sight.”. Id. at 1321. In developing its shotgun
pleading rule, the Eleventh Circuit “examined more
than sixty published decisions issued since the T.D.S.
decision in 1985, [and] looked for how many types of
shotgun pleadings have been used, wittingly or
unwittingly, by attorneys and litigants.” Id. at 1321-22.
The Eleventh Circuit in Weiland describes at least
four (4) different categories of shotgun pleadings
existing within the shotgun pleading rule as of 2015. In
doing so, it acknowledged its own rule for substantively
reviewing pleadings under Rule 8 and Rule 12 directly
conflicts with this Court’s governing Twombly/Iqbal
standard:
Though the groupings cannot be too finely
drawn, we have identified four rough types
or categories of shotgun pleadings. The
most common category —by a long shot—is
a complaint containing multiple counts
where each count adopts the allegations of
all preceding counts, causing each
successive count to carry all that came
before and the last count to be a
combination of the entire complaint.
The next most common category, at least as
far as our published opinions on the subject
reflect, is a complaint that does not commit
the mortal sin of re-alleging all preceding
counts but is guilty of the venial sin of being
replete with conclusory, vague, and
immaterial facts not obviously connected to
any particular cause of action.
The third shotgun pleading category is one
that commits the sin of not separating into
a different count each cause of action or
claim for relief.
Fourth, and finally, there is the relatively
rare sin of asserting multiple claims
against multiple defendants without
specifying which of the defendants are
responsible for which acts or omissions, or
which of the defendants the claim is
brought against.
The unifying characteristic of all categories
of shotgun pleadings is that they fail in one
5

degree or another, and in one way or
another, to give the defendants adequate
notice of the claims against them and the
grounds upon which each claim rests.
Id. at 1322-1323.
The “unifying characteristic” described, however,
is already governed by Twombly/Iqbal. Notably, the at
least four (4) shotgun pleading variants above are not
prohibited or discussed in Twombly/Iqbal. More
importantly, they do not necessarily or axiomatically
render a complaint a category of pleading that does not
fairly “give the defendants adequate notice of the claims
against them and the grounds upon which each claim
rests.” Id. Moreover, Twombly/Iqbal, Rule 8 and/or
Rule 12 do not include any subjective list of “technical
form” requirements allowing non-substantive dismissal
of pleadings with prejudice that otherwise satisfy
Twombly/Iqbal. In fact, nothing in Twombly or Iqbal
prohibits the pleading practices the shotgun pleading
rule prohibits, if such pleading satisfies Twombly/Iqbal
by: (i) stating a claim upon which relief can be granted
after review; and (ii) providing adequate notice and
sufficient supporting facts to an adversary of the claims
asserted against the adversary.
Notably, the Eleventh Circuit recently created a
fifth shotgun pleading variant characterized as the “too
many facts pled” category, further conflicting with
Twombly/Iqbal. See Barmapov v. Amuial, 986 F.3d
1321 (11th Cir. 2021). This expansion further supports
granting this petition. The shotgun pleading rule also
predates Twombly and Iqbal by over two decades, yet
has been aggressively proliferated and expanded by
Eleventh Circuit courts to strike complaints otherwise
satisfying Twombly/Iqbal.
C.

Factual Background & Proceedings
Below

Petitioners filed this action to recover
approximately $6,000,000 aggregately invested in a
fraudulent investment scheme hidden behind Gotham
Media Corporation (“GMC”).
This highly complex
investment scheme centered upon a phony “over-thetop” internet cable television service described as
6

“VIDGO” designed to defraud investors. The VIDGO
scheme was orchestrated and perpetrated by a select
group of respondents with various levels of assistance
and involvement from the other respondents. The
investment scheme was executed to steal Petitioners’
investment funds earmarked for capitalizing and
launching VIDGO.
In response to Petitioners’ Complaint, virtually
all respondents filed either Answers and/or Rule 12
motions to dismiss (with moving and reply briefs)
without moving to strike on 11th Circuit shotgun
pleading rule grounds. (48a-49a). After those motions
were briefed, respondents Federman and Johnson (and
Johnson’s various alter-ego defendant companies) also
moved to dismiss on Rule 12(b)(6) grounds. Id. Johnson
and his 17 defendant alter-ego companies (hereinafter,
the “Johnson Defendants”) also concurrently moved to
strike on shotgun pleading grounds, with Federman
joining that motion. No other respondents that filed
Answers/Rule 12 motions made such shotgun pleading
motions. Id.
On March 22, 2019, the district court granted the
Johnson Defendants’ motion to strike the Complaint as
a “shotgun pleading.” (55a-59a). This despite only the
Johnson Defendants and Federman claiming they could
not decipher the Complaint to formulate a responsive
pleading (despite their Rule 12 motions), and despite the
other respondents’ responsive Answers and Rule 12
motions. The district court never decided any of the Rule
12(b)(6) or Rule 12(c) motions filed on their merits (save
for a limited Private Securities Litigation Reform Act
(“PSLRA”) issue), and even struck Petitioner’s
Complaint as to respondents that filed an Answer.
On March 22, 2019, the district court entered two
separate Written Opinions and Orders: (i) denying
KTC’s/Thurman’s motion to dismiss on personal
jurisdiction grounds (64a-95a); and (ii) granting
Spellman’s motion to dismiss on personal jurisdiction
grounds (15a-46a), despite the shotgun pleading
determination. The Written Opinion granting
Spellman’s personal jurisdiction motion had its Facts
section incorporated into the district court’s separate
March 22, 2019 Written Opinion striking the Complaint
on shotgun pleading grounds. Id.
7

In conflict with its shotgun pleading
determination, the district court made a limited Rule
12(b)(6) motion determination that Petitioners’ federal
RICO claims were barred by the PSRLA since the
Complaint asserted securities fraud as a predicate. That
determination contradicted the district court’s shotgun
pleading determination that the Complaint was
“virtually impossible” to understand. The ability to
review the Complaint to decide certain personal
jurisdiction issues and the PSLRA issue raised in some
Rule 12 motions objectively demonstrates the district
court and opposing counsel could decipher the facts and
claims alleged against respondents in the Complaint.
Per routine shotgun pleading practice, the district
court’s March 22, 2019 Order imposed the following
shotgun pleading requirements upon Petitioners for repleading their Amended Complaint:
(i)
Petitioners may not incorporate all
312 factual paragraphs into each count, but
instead indicate which of the factual
paragraphs are alleged to support each
individual count alleged;
(ii)
Each individual count may only be
based on a single legal claim for recovery
(legal fraud, fraud in the inducement and
alter-ego all separated);
(iii) Plaintiffs could assert a single count
against multiple defendants provided they
identify the precise conduct attributable to
each defendant separately in each count.
(79a-81a).
After Petitioners filed their Amended Complaint
addressing the district court’s directives for addressing
the shotgun pleading deficiencies, certain respondents
again filed Answers, Rule 12(b)(6) motions and Rule
12(c) motions without raising a shotgun pleading
argument (including some of the same). Additional
parties filed motions to strike on shotgun pleading
grounds claiming the March 22, 2019 directives were not
complied with. Despite a new judge acknowledging
Petitioners “technically complied” with the “repeating
and realleging” directive while finding no fault with
Petitioners separating each cause of action into single
counts, the district court issued a January 7, 2020 Order
8

again striking the Amended Complaint with prejudice
on shotgun pleading grounds. (100a-101a).
The January 7, 2020 shotgun pleading
determination was based upon Petitioners allegedly
incorporating too many facts into each count, a
limitation never imposed by the March 22, 2019 Order
and that was not at that time a shotgun pleading
category. Id. It is also not a limitation imposed by Rule
8(a)(2), Twombly or Iqbal. The district court also
determined Petitioners’ pleading did not detail which
factual allegations were asserted against which
Respondents in each count. This conclusion was reached
despite that the Fact section in both pleadings
separating out and organizing all factual allegations as
to each “silo” of respondents under separate headings
before the Counts section, and those numbered
paragraphs being specifically referenced in the first
paragraph of each count. (102a).
Petitioners then moved for reconsideration of the
January 7, 2020 Order seeking leave to amend and/or to
modify the dismissal to “without prejudice”, so
Petitioners could pursue their state law claims in state
court, which comprised all of their claims except for the
dismissed federal RICO counts and two (2) securities
fraud counts. The district court denied reconsideration.
Petitioners then appealed all three-district court
shotgun pleading rulings. (106a-112a).
The Eleventh Circuit affirmed the shotgun
pleading determinations on the same grounds, and again
refused Petitioners any substantive merits-based review
of their claims in either complaint. (1a-12a).
The shotgun pleading rule below resulted in
tremendous injustice to Petitioners after being
defrauded of approximately $6,000,000. They received
virtually no Rule 12, Twombly and Iqbal substantive
merits-based review of their claims. As detailed below,
this is the identical result that numerous other Eleventh
Circuit litigants and their counsel are unjustifiably
suffering in all civil litigation types due to the shotgun
pleading rule’s application. This occurred in this
instance (and others detailed below) despite respondents
and their counsel demonstrating clear ability to review,
understand and file responsive Answers and Rule 12
motions to both complaints stricken on shotgun pleading
9

grounds. This also occurred despite the district court
being able to make a substantive determination from the
Complaint dismissing Petitioners’ federal RICO claims
per the PSRLA based on its factual allegations.
REASONS FOR GRANTING THE PETITION
This case presents an issue of first impression
concerning the Eleventh Circuit’s shotgun pleading rule
routinely implemented since 1985, and specifically
whether the Eleventh Circuit (or any federal circuit)
may impose its own pleading requirements using the
shotgun pleading rule to dismiss complaints otherwise
satisfying Twombly/ Iqbal. The shotgun pleading rule
was developed without this Court’s authority based upon
the Eleventh Circuit’s own competing interpretation of
what Rule 8(a)(2) requires, contrary to Twombly/Iqbal.
This case presents a compelling opportunity for this
Court to review the Eleventh Circuit’s shotgun pleading
rule to determine whether it conflicts with the governing
Twombly/Iqbal standard for Rule 8 and Rule 12
scrutiny.
Compelling reasons exist to grant this petition
since this case satisfies all criteria for a writ of certiorari
to issue. First, an important federal question of first
impression is presented: the direct conflict existing
between the Eleventh Circuit’s shotgun pleading rule
and this Court’s Twombly/Iqbal standard for reviewing
pleadings to determine whether they state a claim for
relief under Rule 12 and Rule 8. See Rule 10(c). The
direct conflict presented specifically invokes this Court’s
Rule 10(c) since it is between the Eleventh Circuit’s
shotgun pleading rule and this Court’s controlling
authority.
The Court’s review and determination of this
conflict will have significant impact in all civil litigations
within the Eleventh Circuit, and far beyond just this
case and the Petitioners. This includes impacting the
ultimate substantive outcomes of hundreds of cases that
will be improperly stricken with prejudice in the future
using a competing standard other than Twombly/Iqbal.
Notably, petitioners’ application is not based upon any
erroneous factual findings or the misapplication of a
properly stated rule of law, but rather a specific issue of
10

first impression involving the direct conflict of federal
law between Twombly/Iqbal and the Eleventh Circuit’s
shotgun pleading rule.
This direct and apparent conflict is “beyond the
academic or the episodic.” Rice v. Sioux City Mem’l Park
Cemetery, 349 U.S. 70, 74 (1955). To the contrary, it has
resulted in hundreds of viable complaints being
improperly stricken for approximately thirty-five years
on non-merit/technical form grounds in violation of this
Court’s governing standards concerning Rule 12 and
Rule 8 scrutiny - both before and after the Twombly and
Iqbal decisions. Over sixty Eleventh Circuit published
cases exist involving pleadings stricken on shotgun
pleading grounds, with countless others not published or
reported.
Consequently, this petition involves serious
importance to the public as distinguished from mere
importance to these particular Petitioners, including: (i)
attorneys practicing in the Eleventh Circuit and its
states; (ii) litigants bringing real and significantly
substantive claims satisfying Rule 8, Rule 12, Twombly
and Iqbal in Eleventh Circuit courts that are
nevertheless stricken on shotgun pleading grounds; (iii)
creation of potential and unwarranted legal malpractice
claims against attorneys (and all related consequences)
doing nothing improper in drafting complaints
satisfying Twombly/Iqbal; (iv) inappropriate dismissal
of substantive claims brought by numerous already
harmed litigants on hyper-technical and non-merit
based grounds never approved by this Court’s authority
or the Federal Rules of Civil Procedure; and (v) the
shotgun pleading rule’s spread to other circuits already
in progress. See Layne & Bowler Corp. v. Western Well
Works, 261 U.S. 387, 393 (1923). For all practicing
attorneys and litigants, the shotgun pleading rule “has
become a most troublesome question in the
administration of justice.” Linkletter v. Walker, 381 U.S.
618, 620 (1965).
Comparing this Court’s Twombly/Iqbal standard
to the Eleventh Circuit’s shotgun pleading rule
demonstrates they are directly at odds. By creating and
implementing its shotgun pleading rule, the Eleventh
Circuit ignores the Twombly/Iqbal standard in favor of
its own shotgun pleading rule that equates to a separate
11

“court rule” never approved by this Court. By doing so,
the Eleventh Circuit routinely “decide[s] a federal
question in a way that conflicts with applicable decisions
of this Court,” thereby necessitating certiorari review
under this Court’s Rule 10(c). See e.g., U.S. v. Bass, 536
U.S. 862 864 (2002)(granting certiorari because the
Sixth Circuit’s decision was contrary to this Court’s U.S.
v. Armstrong decision); Lambert v. Wicklund, 520 U.S.
292, 293 (1997)(certiorari granted “[b]ecause the Ninth
Circuit’s holding is in direct conflict with our
precedents”); Army & Air Force Exchange Serv. V.
Sheehan, 456 U.S. 728, 733 (1988)(ruling below
“appeared to be in conflict with our precedents”).
The Eleventh Circuit’s use of the shotgun
pleading
rule
rather
than
the
controlling
Twombly/Iqbal standard constitutes “a departure” from
“the usual course of judicial proceedings,” as does its
disregard for the Federal Rules of Civil Procedure that
contain no support for the shotgun pleading rule
categories. Per this Court’s Rule 10(a), this direct
conflict calls for certiorari to exercise this Court’s
“judicial supervision of the administration of justice,” in
order to “maintain standards of procedure and
evidence.” McNabb v. U.S., 318 U.S. 332, 340-41. The
Eleventh Circuit’s practice of striking substantively
viable complaints with prejudice on “shotgun pleading
grounds” requires intervention per this Court’s Rule
10(a), since this practice “has so far departed from the
accepted and usual course of judicial proceedings, [and]
sanctioned such a departure by a lower court, as to call
for an exercise of this Court’s supervisory power.”
Hollingsworth v. Perry, 558 U.S. 183, 196 (2010) (This
Court “has a significant interest in supervising the
administration of the [federal] judicial system”); U.S. v.
Beggerly, 524 U.S. 38 (1998)(reviewing the construction
of the federal rules of civil and criminal procedure).
Third, the Question Presented is an important
and repeatedly recurring one, evidenced not only by this
matter, but also by the number of published shotgun
pleading decisions. This includes the recent Barmapov
decision reaffirming the shotgun pleading rule through
the Eleventh Circuit’s most senior judge’s concurring
opinion even if a complaint satisfies Twombly/Iqbal.

12

Lastly, “fairly included” within the Question
Presented is whether the shotgun pleading rule
constitutes an unauthorized equivalent of its own
distinct “Federal Rule of Civil Procedure” without proper
amendment or this Court’s approval. Such inquiry
constitutes a “subsidiary question fairly included” per
this Court’s Rule 14.1(a). Yee v. City of Escondido, 503
U.S. 519, 537 (1992). The foregoing conflict argued in
this petition respectfully illustrates that the shotgun
pleading rule essentially does constitute an
unauthorized equivalent of the Eleventh Circuit’s own
distinct Federal Rule of Civil Procedure. Broadening the
scope of Federal Rules of Civil Procedure can only be
accomplished “by the process of amending the Federal
Rules, and not by judicial interpretation.” Swierkiewicz
v. Sorema N. A., 534 U.S. 506, 515 (2002); (Leatherman
v. Tarrant County, 507 U.S. 163, 168 (1993).
Accordingly, this case is the ideal vehicle for
determining the Question Presented. It took over thirtyfive (35) years for the Question Presented to reach this
Court and it may never do so again. This includes over
one decade since the Twombly and Iqbal decisions,
during which time Eleventh Circuit courts have more
aggressively expanded and routinely implemented the
shotgun pleading rule. Petitioners confronted the
shotgun pleading rule at all phases below while arguing
as to its conflict with Twombly/Iqbal, since most
respondents’ course of conduct in filing Answers, Rule
12(b)(6) and Rule 12(c) motions rather than shotgun
pleading motions confirmed the complaints were
sufficiently pled.
A.

The Shotgun Pleading Rule Directly
Conflicts with Twombly/Iqbal

Creation and use of the shotgun pleading rule to
strike pleadings without substantive review on the
merits directly conflicts with Twombly/Iqbal. The
Eleventh Circuit’s reasoning for the shotgun pleading
rule (i.e. to ensure a pleading provides a party “adequate
notice of the claims against them and the grounds upon
which each claim rests”) is already governed by Twombly
and Iqbal. This Court’s governing standard for motions
to dismiss for failure(s) to satisfy Rule 8 or Rule 12 does
13

not include any subjective list of technical “form”
pleading practices authorizing the non-substantive
dismissal of pleadings with prejudice otherwise
satisfying Twombly/Iqbal, such as the five (5) shotgun
pleadings types described here. There is simply nothing
in Twombly or Iqbal prohibiting the “form” pleading
practices the shotgun pleading rule admonishes where a
pleading otherwise satisfies Twombly/Iqbal.
First, nowhere does Twombly or Iqbal hold that a
“complaint containing multiple counts where each count
adopts the allegations of all preceding counts, causing
each successive count to carry all that came before and
the last count to be a combination of the entire
complaint,” is an improper pleading practice: (i)
violating Rule 8 or Rule 12; and/or (ii) making it
“virtually impossible” for an adversary to understand or
be on notice of the claims asserted against them. The
district court utilized this shotgun pleading variation to
strike both pleadings below. Tellingly, even after
Petitioners corrected that practice per the district court’s
directive, the district court determined the Amended
Complaint still violated this variation and struck it
again on shotgun pleading grounds. This despite
acknowledging Petitioners’ “technically complied” with
this directive, and while never applying Twombly/Iqbal
to determine if either pleading satisfied that governing
standard.
Second, while not an issue below, a pleading
“replete with conclusory, vague, and immaterial facts
not obviously connected to any particular cause of
action” does not necessarily mean a pleading does not
satisfy Twombly/Iqbal for proper pleading under Rule 8
and Rule 12. Even the Eleventh Circuit published
shotgun pleading cases demonstrates no need for that
shotgun pleading category in such scenarios, since
motions for more definite statements have existed before
and since the shotgun pleading rule’s creation in 1985.
This second shotgun pleading category therefore should
not allow “striking” a pleading with prejudice on such
technical grounds without review on the merits.
Third, “not separating into a different count each
cause of action or claim for relief in a complaint” does not
axiomatically render a pleading deficient so as to not
satisfy Rule 8 or Rule 12, or one that does not fairly
14

apprise an adversary of the claims asserted. This
shotgun pleading variation too patently contradicts
Twombly/Iqbal. The district court took issue with
Petitioners’ first pleading (which Petitioners corrected)
merely because one count in the original Complaint
stated petitioners’ claims for fraud and alter-ego in the
same count, while ignoring whether the complaint
provided fair and adequate notice to the adversaries
regarding the claims asserted against them.
Fourth, the
shotgun pleading variation of
“asserting multiple claims against multiple defendants
without specifying which of the defendants are
responsible for which acts or omissions, or which of the
defendants the claim is brought against,” also falls
within Twombly/Iqbal for Rule 12 and Rule 8 review.
Such “defects” are addressable on Rule 12 motions to
dismiss or a Rule 12(e) motion for a more definitive
statement. There is consequently no justification to
“strike” a pleading with prejudice in that scenario that
may still place the adversary on notice of the claims
against them. This shotgun pleading variation is also
highly subjective and confusing.
Lastly, the recently created “too many facts” form
of shotgun pleading directly conflicts with the
Twombly/Iqbal minimum threshold standard for Rule 8
and Rule 12 for scrutiny and equates to its own pleading
standard.
The rulings below demonstrate the same district
court striking Petitioner’s pleading on purported
shotgun pleading grounds could still nevertheless rule
on the pleadings’ merits and personal jurisdiction issues,
by deciphering the facts and claims asserted in it. This
confirms the direct conflict between Twombly/Iqbal and
the shotgun pleading rule.
B.

Weiland Confirms the “Shotgun
Pleading” Rule Conflicts

Weiland v. Palm Beach County Sheriff’s Office,
792 F.3d 1313 (11th Cir. 2005) illustrates the shotgun
pleading rules directly conflicts with Twombly/Iqbal
standard, consequently creating unjust results for
litigants whose pleadings otherwise satisfy Rule 12 and
Rule 8 motion scrutiny. In Weiland, the 11th Circuit
15

reversed the district court’s dismissal of plaintiff’s
claims based upon the two shotgun pleading practices of:
(i) “repeating and re-alleging all of the factual
allegations in Paragraphs 1 through 49 inclusive”; and
(ii) failing “to identify which allegations are relevant to
the elements of which legal theories” and “which
constitutional amendments govern which counts.” Id. at
1324.
Highlighting the shotgun pleading rule’s conflict
with Twombly/Iqbal, the district court “dismissed those
claims even though it was able to determine from the
complaint that the plaintiff stated a claim for relief
against [defendants] under the Fourth Amendment and
for conspiracy to violate his constitutional rights.” Id. at
1324. Tellingly, the district court’s “reasoning for
dismissing with prejudice claims that it could discern
from the complaint was that it had given plaintiff an
opportunity to replead his complaint, and his amended
pleadings “duplicate[d] the [purported] violations of
Rule 8(a)(2) and 10(b) which formed the basis of the
[c]ourt’s [earlier] dismissal of th[o]se counts.” Id.
(emphasis added).
The
Eleventh
Circuit
reversed
because
defendants were still able to identify the specific
causes of action against them, and which
defendants those claims were asserted against. Id.
at 1324. In other words, while the complaint violated
the shotgun pleading rule, the pleading nevertheless
satisfied Twombly/Iqbal by apprising defendants of the
claims against them and the supporting factual
allegations supporting those claims. That direct
conflicting result demonstrates the shotgun pleading
rule cannot co-exist with Twombly/Iqbal.
Specifically, in Weiland, the plaintiff repeated
and re-alleged paragraphs 1 through 49 before each
count; the “most common type of shotgun pleading.”
That “failure to more precisely parcel out and identify
the facts relevant to each claim materially increased the
burden of understanding the factual allegations
underlying each count.” Id. The defendants did not move
for a more definite statement under Rule 12(e) or
otherwise argue they had difficulty knowing the
allegations against them or what they were liable for.

16

The Eleventh Circuit found that determining
which of the 49 paragraphs incorporated into count one
were relevant to plaintiff’s claims was “hardly a task at
all.” The exercise was “greatly simplified” by organizing
the 49 paragraphs of facts into three subsections with
separate headings and consisted of 23 paragraphs
spanning six pages. Id. While deeming one subsection
“over-inclusive” for excessive force claims (including 10
paragraphs being irrelevant to plaintiff’s claim), they
“clearly and concisely” describe facts supporting
plaintiff’s claims. While “not a model of efficiency or
specificity,” the Eleventh Circuit found the complaint
adequately put defendants] on notice of the specific
claims against them and the supporting factual
allegations. Id. It made the same determination as to
count three regarding defendants’ conspiracy to deprive
plaintiff’s constitutional rights. While only one of those
alleged deprivations stated a cognizable claim, it was
(like count one) enough “to give defendant” adequate
notice of the claims against them and the factual
allegations that support those claims.” Id. at 1324-1325.
Weiland inherently acknowledges the shotgun
pleading rule’s direct conflict with Twombly/Iqbal. This
results in viable Eleventh Circuit complaints under Rule
8, Rule 12 and Twombly/Iqbal being unfairly “stricken”
with prejudice on non-substantive grounds over “form”
superficialities, unrelated to whether adversaries are
fairly apprised of claims asserted against them and the
facts supporting those claims. Tellingly, the Eleventh
Circuit was compelled to defend the Weiland deviation
from the shotgun pleading rule, since both it and the
district court knew the complaints pled viable claims:
In concluding that the court should not
have dismissed those two counts, we are
not retreating from this circuit’s criticism of
shotgun pleadings, but instead are deciding
that, whatever their faults, these two
counts are informative enough to permit a
court to readily determine if they state a
claim upon which relief can be granted. The
district court implicitly recognized as much
when it observed in the orders dismissing
counts one and three that they do state
claims upon which relief can be
17

granted. Whether those observations are
correct is a question to which we now turn
[via Rule 12 motion].
Id. at 1326. (emphasis added).
C.

Creation of the Fifth Shotgun Pleading
Variant Based On “Too Many Facts” Pled

The shotgun pleading rule is being aggressively
expanded, resulting in an increasing number of
substantively viable complaints like Weiland being
superficially stricken without ever receiving substantive
merits-based review. Recently in Barmapov v. Amuial,
986 F.3d 1321 (11th Cir. 2021) decided shortly before this
matter, the Eleventh Circuit (with a lengthy
concurrence by its most senior judge who created the
shotgun pleading rule) confirmed its creation of a fifth
variant of shotgun pleading characterized as the “too
many facts” category.
This despite some of that
complaint stating claims that could survive a Rule 12
motion.
In Barmapov, the plaintiff filed a complaint
amended five (5) months later. The amended complaint
set forth a 20-count action against twenty-three (23)
defendants and twenty (20) fictious defendants. The
amended complaint was 116 pages long and contained
624 paragraphs. About 350 of the paragraphs were
incorporated into each of the twenty (20) counts. The
district court dismissed the original complaint on
shotgun pleading grounds citing three of the four
shotgun pleading categories. Id. at 1323.
Barmapov’s counsel then filed a second amended
complaint: (i) reducing the number of defendants to 16;
(ii) reducing the number of pages to 92; (iii) reducing the
number of paragraphs to 440; and (iv) removing all
federal claims, leaving only state claims. See id. Rather
than apply Twombly/Iqbal, the district court applied
the shotgun pleading rule to strike Barmapov’s pleading
with prejudice.
It determined Barmapov’s second
amended complaint “still fail[ed] to provide a short and
plain statement justifying relief and ... allegations that
[were] simple, concise, and direct.” Nine of Barmapov’s
counts “incorporate[d] by reference all of the allegations
contained in Paragraphs 21–269.” It also found many of
18

these allegations “irrelevant to the case and “serve[d] to
confuse the issues.” Id. at 1324-1325. It further
determined Barmapov continued “to impermissibly
lump [d]efendants together ..., rendering it unclear and
confusing as to which [d]efendant [was] being charged
with which specific conduct.” Since Barmapov did not
follow the district court’s “specific instructions and
warnings” about “how to formulate a proper pleading,”
his complaint was stricken with prejudice. Id.
The Barmapov ruling directly conflicts with this
Court’s Twombly/Iqbal standard, and represents a
patent refusal to apply this Court’s governing standard
for Rule 12 motions under the semantic veil of a “motion
to strike on shotgun pleading grounds.” In Barmapov,
the Eleventh Circuit confirmed this openly direct conflict
in detailing the purpose of the shotgun pleading rule:
A shotgun pleading is a complaint that
violates either Federal Rule of Civil
Procedure 8(a)(2) or Rule 10(b), or both.
(citation omitted). Rule 8(a)(2) requires the
complaint to provide “a short and plain
statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P.
8(a)(2). Rule 10(b) requires a party to “state
its claims or defenses in numbered
paragraphs, each limited as far as
practicable
to
a
single
set
of
circumstances.” Rule 10(b). “If doing so
would promote clarity,” Rule 10(b) also
mandates that “each claim founded on a
separate transaction or occurrence ... be
stated in a separate count ....” Id. The “selfevident” purpose of these rules is “to
require the pleader to present his claims
discretely and succinctly, so that[ ] his
adversary can discern what he is
claiming and frame a responsive
pleading.” (citations omitted). These rules
were also written for the benefit of the
court, which must be able to determine
“which facts support which claims,”
“whether the plaintiff has stated any
claims upon which relief can be
granted,”
and
whether
evidence
19

introduced at trial is relevant. (citations
omitted).
Id. at 1325. (emphasis added).
The shotgun pleading rule’s direct conflict with
Twombly/Iqbal
was
further
acknowledged
in
Barmapov. After concluding the second amended
complaint did not fall within the first, third and fourth
category of “shotgun pleadings”, the Eleventh Circuit
struck Barmapov’s pleading with prejudice on “second
category” shotgun pleading grounds:
the
second
amended
complaint
undoubtedly falls into the second category
of shotgun pleadings. It is rife with
immaterial factual allegations, including
five pages and 24 paragraphs of irrelevant
details about the alleged criminal
backgrounds of some of the defendants. To
make matters worse, the complaint then
incorporates these paragraphs into 13 of
the 19 counts, including counts against
defendants who had no part in this
background history. Other examples of
inconsequential details include Barmapov’s
business background; the relationships
among Yossi, Guy, and Avrham Amuial,
Terry Rafih, and John Obeid; Barmapov’s
history
with
Reuben
Sastiel;
the
experiences of Barmapov’s grandson
working for the Amuials; and the
contentious business meetings between
Barmapov, the Amuials, and Sastiel. In
addition, the second amended complaint
indiscriminately incorporates and repeats
249 numbered paragraphs of factual
allegations—spanning 50 pages—into nine
of the 19 counts, without any effort to
connect or separate which of those 249
factual allegations relate to a count. As a
result, these nine counts include factual
allegations that are immaterial to the
underlying causes of action.
Id. at 1325.
These shotgun pleading “defects” have no
correlation to whether the pleading adequately provided
20

notice to the adversaries concerning what claims were
asserted against them, or whether the pleading
contained sufficient supporting facts. Immaterial facts
are easily ignored by a court or deemed so in applying
Twombly/Iqbal scrutiny against such pleadings, and
those pertinent are highlighted with appropriate
citations to a court on motion practice in briefing.
In fact, after Barmapov’s concurring opinion
“explain[ed] the roles that plaintiff’s counsel, district
courts, and defense counsel play in paring down
[shotgun] pleadings, as well as the policies that inform
those roles”, the senior judge acknowledged that
Barmapov second amended complaint “[may] identify a
claims that may satisfy [Rule] 12(b)(6),” but nevertheless
“explain[ed] why Barmapov’s potentially viable claim
must nevertheless be dismissed under our shotgun
pleading case law”:
With these principles in mind, I turn to
Barmapov’s claims. At the outset, it is
worth noting that the district court was
correct: Barmapov’s Second Amended
Complaint is undoubtedly “a rambling,
dizzying array of nearly incomprehensible
pleading.” But it is not so impenetrable
as to prohibit a close look at the claims
he has attempted to plead. Indeed,
after a careful review of the Second
Amended
Complaint,
I
believe
Barmapov may have pled some claims
that could have survived a Rule
12(b)(6) motion to dismiss.
Id. at 1326-1327, 1330-1331. (emphasis added).
The question then becomes why the Eleventh
Circuit in Barmapov did not apply Twombly/Iqbal to
determine that specific issue rather than the competing
shotgun pleading rule never authorized by this Court
under Rule 8 or Rule 12. Worse, after acknowledging
many so called “shotgun pleadings” are not drafted for
any improper purpose or are perhaps poorly drafted per
shotgun pleading technical requirements, the
concurrence openly acknowledged that many shotgun
pleadings “may contain meritorious claims” but are
“replete with conclusory, vague, and immaterial facts
not obviously connected to any particular cause of
21

action” are subject to dismissal under our shotgun
pleading case law.” Id. The concurrence then openly
acknowledged the shotgun pleading rule’s direct conflict
with Twombly and Iqbal:
[t]o an outside observer, disposing of
these otherwise viable claims because a
plaintiff’s lawyer pled too many facts may
seem like strong medicine, particularly in
light of Ashcroft v. Iqbal’s requirement
that a complaint include more than
“[t]hreadbare recitals of the elements
of a cause of action, supported by mere
conclusory statements.” And it is
strong medicine, but for good reason.
Id. at 1327. (emphasis added)
The foregoing reasons behind the fifth “too many
facts” variant of “shotgun pleadings” are perhaps the
most convincing and illustrative example of its conflict
with Twombly/Iqbal. The concerns for: (i) an adversary
understanding the claims against it to frame a
responsive pleading; and (ii) whether a complaint states
claims upon which relief can be granted are already
governed by Twombly/Iqbal. Nevertheless, Barmapov
imposed the Court’s own standard rather than adhere to
the Twombly/Iqbal standard striking an admittedly
otherwise viable complaint:
Taking the allegations of his Second
Amended Complaint as true—as we must,
(citations omitted)—it appears that
Barmapov may have pled enough in
Count X to survive a Rule 12(b)(6) motion.
For the first element, Barmapov alleges
that Yossi (among others) made false
statements at meetings between January
17 and January 24, 2017, regarding the
division of profits from the car dealership
and the control Barmapov would have over
the dealership. Barmapov claims that these
were material misrepresentations because
he relied on them when deciding whether
to invest in the dealership. For the second
element, Barmapov alleges that Yossi
knew that the representations he made to
Barmapov were false and that he never
22

intended for Barmapov to have any control
over the dealership. On the third element,
Barmapov repeatedly alleges that Yossi
intended to induce him to invest millions of
dollars into the dealership. And on the
fourth element, Barmapov alleges that he
in
fact
invested—and
lost—nearly
$4,000,000 in the venture as a result of
Yossi’s representations.
An outside observer may feel as though this
is enough: Barmapov has alleged that he
was harmed, and he has pled facts
sufficient to make out a claim of fraud
under Florida law. Admittedly, this
perspective has some appeal. Reading the
Second Amended Complaint, it does appear
that Barmapov was swindled by Yossi
Amuial and the other Defendants, and one
might sympathize with a man who, relying
on the representations others made to him,
invested millions of dollars in a scam.
But considering the policies I outlined in
Part I, even the potentially viable
claims contained in Barmapov’s
Second Amended Complaint must be
dismissed. Faced with a shotgun pleading,
the district court—as we have repeatedly
instructed—ordered Barmapov’s counsel to
amend the First Amended Complaint and
to address the identified deficiencies.
Id. at 1331-1332. (emphasis added).
The Barmapov concurrence continued expressing
no regard for Iqbal/Twombly or the striking of
Barmapov’s pleading on shotgun pleading grounds in
contravention of this Court’s standard:
So, though the panel’s conclusion today
results in an unfortunate outcome for
Mr. Barmapov, it is correct. Critics of this
Circuit’s shotgun pleading case law may
condemn the emphasis we place on form,
but as I have explained, the form of
pleadings imposes very real costs on
courts, lawyers, and the rights of litigants.
For over thirty-five years, lawyers
23

practicing in this Circuit have been aware
of our stance on shotgun pleadings, and
thus I have little sympathy for lawyers who
draft slapdash complaints that are
ultimately dismissed. Going forward, it is
my hope that this opinion will serve as a
guide for lawyers who truly seek to
vindicate their client’s rights—and avoid
unfortunate outcomes for their clients—
by filing clear, precise pleadings.
Id. at 1332. (emphasis added).
Even the most forgiving reading of Barmapov
illustrates how directly in conflict the shotgun pleading
rule is with the governing Twombly/Iqbal standard for
Rule 8 and Rule 12 review. No circuit court of appeals
has the authority to implement an “our” rule when this
Court has already promulgated the governing standard
for a particular area of federal law or practice.
Petitioners’ own pleadings were repeatedly stricken with
prejudice in a similar manner, despite their adversaries
and opposing counsel ably preparing responsive answers
and Rule 12 motions, and the district court ably
reviewing and understanding specific claims.
D.

The Shotgun Pleading Rule Operates As
Its Own Rule

The conflict between the Twombly/Iqbal
standard and shotgun pleading rule is patently obvious
since Eleventh Circuit courts employ; (i) Twombly/
Iqbal for “Rule 12” substantive merits review; (ii) Rule
12(e) to determine whether a more definitive pleading is
warranted; and (iii) the shotgun pleading standard to
avoiding any substantive review on the merits to strike
a pleading on technical form grounds.
Reading the Barmapov concurrence leaves no
doubt the “rule” operates as its own separate equivalent
of a Federal Rule of Civil Procedure conflicting with
Twombly/Iqbal and Rule 12 motion alternatives:
When faced with a complaint that bears the
hallmarks of a shotgun pleading, defense
counsel typically has two options. First,
they can move the court for a more definite
statement pursuant to Federal Rule of Civil
24

Procedure 12(e). Or second, they can move
to dismiss the complaint for failure to state
a claim under Rule 12(b)(6). In the event
the motion is defense counsel’s first
response to the shotgun complaint, the
result will likely be the same under either
rule. Under Rule 12(e), the district court
will grant defense counsel’s motion for a
more definite statement and order
plaintiff’s counsel to redraft the pleading
such that it complies with Rules 8(a)(2) and
10(b). If that order is not obeyed “within 14
days after notice of the order or within the
time the court sets, the court may strike the
[complaint] or issue any other appropriate
order.” Rule 12(e). And for a Rule 12(b)(6)
motion, the district court will dismiss the
complaint without prejudice on the grounds
that the pleading does not comply with
Rules 8(a)(2) and 10(b); the court will then
give plaintiff’s counsel “one chance to
remedy” the complaint’s defects before
dismissing the case with prejudice.
But most importantly, defense counsel
should never respond to a shotgun
pleading in kind. (citations omitted). We
have expressly condemned the filing of
shotgun answers that contain “affirmative
defenses that fail to respond explicitly to
the
specific
claims
plaintiffs
are
independently asserting.”
Id. at 1329-1330. (emphasis added).
Wagner v. First Horizon Pharmaceuticals Corp.,
464 F.3d 1273 (11th Cir. 2006) further highlights both
the conflicting nature of the shotgun pleading rule, and
its independent existence competing with this Court’s
Twombly/Iqbal standard. In Wagner, the plaintiff filed
a class action securities fraud against the defendant
pharmaceutical company. Id. at 1275-1277. In response
to a Rule 12(b)(6) motion, the district court dismissed the
complaint because it failed to satisfy the Rule 9(b) and
PSLRA specificity requirements. After the district court
conditioned leave to amend on the payment of attorneys’

25

fees and cost, plaintiff appealed both orders. See id. at
1276.
On appeal, the Eleventh Circuit determined the
complaint not only failed to comply with the Rule 9(b)
and PSLRA specificity requirements, but also
determined the complaint was a “proverbial shotgun
pleading.” It made the determination because the
complaint “did not clearly link any” of “the great deal of
factual allegations” to the complaint’s “causes of action.”
Id. at 1279-1280. Nevertheless, the Eleventh Circuit
again deviated from its shotgun pleading rule and
disagreed with the dismissal “because these
observations sound more clearly in Rule 12(e)’s remedy
of ordering repleading for a more definite statement of
the claim, rather than in Rule 12(b)(6)’s remedy of
dismissal for failure to state a claim.” Id. Therefore, the
Eleventh Circuit deviated again from the shotgun
pleading rule and held the proper remedy was Rule 12(e)
repleading. Id. at 1279-1280. Nevertheless, the Court
affirmed the District court, but did so contrary to the
district court’s application of the shotgun pleading rule
finding that plaintiffs’ failure to “connect” their causes of
action to the facts alleged rendered the complaint
deficient.
Not only do the so-called “connectivity” issues
above have no foundation in Twombly/Iqbal, but
Wagner (like Weiland and Barmapov) further
demonstrates: (i) how the shotgun pleading rule
operates independently on its own separate from
Twombly/Iqbal; and (iii) how it directly conflicts with
this Court’s governing standard for reviewing pleadings
under Rule 12 and Rule 8.
E.

The Sledge Case Illustrates the Shotgun
Pleading Rule Undermines Twombly and
Iqbal to Strike Viable Complaints

The Eleventh Circuit’s ruling in Sledge v.
Goodyear Dunlop Tires, 275 F.3d 1014, 1015-106 (11th
Cir. 2001), abrogated on other grounds, Douglas Asphalt
v. QORE, Inc., 657 F.3d 1146 (11th Cir. 1998)
demonstrates the injustice of using the shotgun pleading
rule to dismiss viable pleadings. In Sledge, a black
plaintiff employee sued his employer tire manufacturer
26

under Title VII claiming race discrimination after being
repeatedly passed over for a Maintenance Department
promotion. Out of 107 mechanics in the Maintenance
Department, only one was black. Id. at 1019.
Additionally, when the plaintiff applied for the three
positions filled by white employees, he was not afforded
an interview, with subsequent events inferring he was
not interviewed because he was black. See id.
The human resources, maintenance mechanics
and the maintenance department supervisors
determined plaintiff was qualified for the promotion.
Supervisors’ recommended plaintiff be promoted, but
human resources precluded him from taking the written
examination. This despite the employer certifying two
white men for the promotion interview who had not
taken the written examination. After the two white
males were promoted, a third white male employee took
the exam and failed. Nevertheless, human resources
still certified him for interview, and he was selected.
Another white male employee was also awarded the
promotional position despite failing the exam twice. Id.
at 1020.
After the district court granted summary
judgment in the employer’s favor, the Eleventh Circuit
reversed and vacated since the record below presented
questions of fact concerning whether the defendant
employer racially discriminated against plaintiff. See
id. at 1019-1020. Critical to Question Presented, the
Eleventh Circuit described both the initiating complaint
and responsive answer as “shotgun pleadings.” This
despite the litigants not believing while completing
discovery and moving for summary judgment:
The complaint is a typical “shotgun”
pleading, in that it does not identify the
occasion, or occasions, when, but for
Goodyear’s intent to discriminate, he would
have been promoted. One has to canvass
the record to determine the occasions he
actually complains of.
Faced with a
shotgun complaint, Goodyear has replied in
kind, filing an answer consisting of little
more
than
generalized
statements.
Goodyear’s answer contains a general
denial: Sledge has never been refused a
27

promotion to Maintenance mechanic based
on his race. Id. at 1018-1019.
Had the district court applied the shotgun
pleading rule at Sledge inception to plaintiff’s pleading
when the defendant employer and its counsel actually
understood the Title VII claims sufficiently to file a
responsive answer, the plaintiff’s substantively viable
Title VII claims would have been stricken (and affirmed
on appeal) on shotgun pleading grounds. Since both the
district court and defendant counsel though believed the
pleading passed Rule 12(b)(6) scrutiny, the case
proceeded, and discovery developed plaintiff’s rather
strong case. Notably, Twombly and Iqbal had not yet
been decided in 2001 when Sledge was decided, but the
older Rule 12 standard at that time was even more
favorable to plaintiffs.
Nevertheless, the Sledge
complaint would still have unjustly been stricken on
“shotgun pleadings” grounds, despite stating claims
providing fair notice to defendant of the claims asserted
and supporting facts so a response could be prepared.
F.

The Shotgun Pleading Rule Is
Spreading to Other Circuits

The shotgun pleading rule is spreading to other
federal circuits whose courts are adopting Eleventh
Circuit shotgun pleading authority. This necessitates
granting the instant petition to avoid further contagion
of
the
shotgun
pleading
rule
undermining
Twombly/Iqbal in other federal circuits, especially given
how long it took the Question Presented to arrive before
this Court (and how much longer it will take– if ever –
to arrive again).
For example, the Eastern District of Pennsylvania
in Bartol v. Barrowclough, 251 F.Supp.3d 855, 857-860
(E.D.P.A. 2017) struck a plaintiff’s pleading on shotgun
pleading grounds in reliance upon the 11th Circuit’s
authority. The district court actually recited the four (4)
variants of “shotgun pleadings” recognized at that the
time (2017) in the Eleventh Circuit, and added that the
“Third Circuit has criticized ‘the all too common shotgun
pleading approach’ to complaints.” Id. at 859. It cited
other Third Circuit cases like Hynson v. City of Chester,
864 F.2d 1026, 1031, n. 13 (3rd Circuit 1988) and Wright
28

v. City of Philadelphia, # 01-6160, 2005 WL 3091883, at
11 (E.D.Pa Nov. 17, 2005) supporting that proposition.
Specifically, the district court applied the
“relatively rare” fourth variant of shotgun pleading (i.e.
multiple claims against multiple parties without
specifying which of the defendants are responsible for
which acts or omissions, or which the defendants the
claim is brought against). Id. It dismissed the complaint
without prejudice for repleading because it constituted a
“’shotgun pleading’ that fail[ed] to comply with Rule
8(a)(2),” and since it “fail[ed] to give defendants
adequate notice of the claims against them and the
grounds upon which each claim rests.” Id.
The above legal analysis did not require use of the
Eleventh Circuit’s shotgun pleading rule. Rather, it
required applying Rule 12(b)(6) and the Twombly/Iqbal
standard, or perhaps Rule 12(e) for a more definitive
statement. Bartol is therefore a paradigm for how the
shotgun pleading rule has and will spread to other
federal circuits in contravention of this Court’s
Twombly/Iqbal standard if the Question Presented is
not addressed at this time. If anything, denying this
petition will only embolden the Eleventh Circuit and
other federal courts to implement and/or expand the
shotgun pleading rule.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Carl J. Soranno, Esq.
Counsel of Record
BRACH EICHLER LLC
101 Eisenhower Parkway
Roseland, NJ 07068
973.228.5700
csoranno@bracheichler.com
Dated: July 23, 2021

29

